               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




      Vehicle Operations - Response to
              Hurricane Sandy

                       Audit Report




                                              August 6, 2013

Report Number DR-AR-13-005
                                                                       August 6, 2013

                                                    Vehicle Operations - Response
                                                               to Hurricane Sandy

                                                      Report Number DR-AR-13-005



BACKGROUND:
During late October 2012, Hurricane        Sandy. They adequately safeguarded
Sandy affected the entire eastern          the majority of vehicles by instructing
seaboard, from Florida to Maine. It was    personnel to relocate vehicles to higher
the deadliest and most destructive storm   ground to mitigate the effects of
of the 2012 Atlantic hurricane season      Hurricane Sandy.
and the second costliest hurricane in
U.S. history. The severe and               Despite these efforts, 110 of 16,267
widespread damage the storm caused         delivery vehicles were damaged or
and its unusual merge with a frontal       destroyed due to the unprecedented
system resulted in the media and           impact and deviation of the storm
several federal agencies nicknaming the    affecting low-lying locations in New York
storm "Superstorm Sandy."                  and New Jersey, normally not prone to
                                           flooding. Management ensured delivery
The U.S. Postal Service’s director of      vehicles that sustained damage were
National Preparedness issued the 2012      sufficiently repaired and serviced prior to
Hurricane Preparedness Guide —             being reused. The damages cost the
Area/District/Headquarters on June 1,      Postal Service about $616,000 for
2012, to assist area and district          vehicle repairs, rentals, and losses.
management in providing the necessary
direction, coordination, and support to    Updated emergency preparedness
ensure the appropriate facilities are      plans will ensure there is appropriate
prepared for hurricane season which        designation of potential impacted areas,
helps protect personnel while minimizing   and allows officials sufficient response
damage and loss of assets, including       time to secure assets during natural
vehicles.                                  disasters.

Our objective was to evaluate the          WHAT THE OIG RECOMMENDED:
effectiveness of vehicle operations'       We recommended the vice presidents,
emergency response to Hurricane            Eastern and Northeast Area Operations,
Sandy. We assessed the storm’s impact      direct field personnel to update
on the Capital Metro, Eastern, and         emergency preparedness plans with
Northeast areas.                           new low-lying flood areas to safeguard
                                           vehicles.
WHAT THE OIG FOUND:
The Postal Service implemented             Link to review the entire report
emergency preparedness plans for
delivery vehicles prior to Hurricane
August 6, 2013


MEMORANDUM FOR:             JOSHUA D. COLIN
                            VICE PRESIDENT, EASTERN AREA OPERATIONS

                            RICHARD P. ULUSKI
                            VICE PRESIDENT, NORTHEAST AREA OPERATIONS




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Audit Report — Vehicle Operations - Response to Hurricane
                            Sandy (Report Number DR-AR-13-005)

This report presents the results of our audit of Vehicle Operations - Response to
Hurricane Sandy (Project Number 13XG019DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director, Delivery
and Post Office Operations, or me at 703-248-2100.

Attachment

cc: Edward F. Phelan, Jr.
    Elizabeth A. Schaefer
    Philip F. Knoll
    Michael A. Swigart
    Deborah A. Gless
    Kristin A. Seaver
    David C. Fields
    Leslie E. Johnson-Frick
    Corporate Audit and Response Management
Vehicle Operations - Response                                                                                      DR-AR-13-005
 to Hurricane Sandy


                                               TABLE OF CONTENTS



Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Response to Hurricane Sandy ........................................................................................ 2

Recommendation ............................................................................................................ 5

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 8

   Prior Audit Coverage ................................................................................................... 9

Appendix B: Damaged and Destroyed Vehicles ............................................................ 10

Appendix C: Management's Comments ........................................................................ 12
Vehicle Operations - Response                                                                           DR-AR-13-005
 to Hurricane Sandy


Introduction

This report presents the results of our audit of Vehicle Operations - Response to
Hurricane Sandy (Project Number 13XG019DR000). The objective of this self-initiated
audit was to evaluate the effectiveness of vehicle operations' emergency response to
Hurricane Sandy. This audit addresses operational risk. See Appendix A for additional
information about this audit.

During late October 2012, Hurricane Sandy affected the entire eastern seaboard from
Florida to Maine with sustained winds of up to 110 miles per hour and spanning
1,100 miles in diameter (see Figure 1). The severe and widespread damage the storm
caused in the U.S., and its unusual merge with a frontal system, resulted in the media
and some federal agencies nicknaming the storm "Superstorm Sandy." The Northeast
Coast received the greatest impact from the storm, especially New Jersey and New
York. On June 1, 2012, the U.S. Postal Service director, National Preparedness, issued
the 2012 Hurricane Preparedness Guide1 — Area/District/Headquarters to assist area
and district management in providing the necessary direction, coordination, and support
to ensure the appropriate facilities are prepared for hurricane season.

                     Figure 1. Hurricane Sandy Hits the Eastern Seaboard




                       Source: Google.com - images of Hurricane Sandy.




1
 The 2012 Hurricane Preparedness Guide — Area/District/Headquarters is a compilation of best practices from
areas and districts that have experienced hurricanes. It helps improve protection of personnel while minimizing
damage and loss of assets including vehicles, facilities, and financial instruments, and ensures the continuity of
essential Postal Service functions and critical services.

                                                           1
Vehicle Operations - Response                                                               DR-AR-13-005
 to Hurricane Sandy



Conclusion

The Postal Service responded effectively to mitigate the effects of Hurricane Sandy on
operations. Specifically, officials implemented emergency preparedness plans for
16,267 delivery vehicles to adequately safeguard these assets by relocating them to
higher ground. Despite management's efforts, 110 delivery vehicles were damaged or
destroyed due to the unprecedented impact and deviation of the storm affecting low-
lying locations in New York and New Jersey, normally not prone to flooding. Officials
also ensured that delivery vehicles that sustained damages were sufficiently repaired
and serviced prior to being reused. The Postal Service incurred $616,353 for vehicle
repairs, rentals, and losses (see Appendix B). Updated emergency preparedness plans
will ensure there is appropriate designation of potential impacted areas, and allow
officials sufficient response time to secure assets during natural disasters.

Response to Hurricane Sandy

The Postal Service implemented emergency preparedness plans to safeguard the
majority of the delivery vehicles and mitigate the effects of Hurricane Sandy. For
example, headquarters officials notified field personnel of the anticipated storm and
impact. Area and district officials advised vehicle maintenance facility (VMF) personnel
of their responsibilities and VMF personnel handled the delivery vehicles in accordance
with established policies and procedures.2

However, seven districts in the Northeast and Eastern areas3 had 110 delivery vehicles
that sustained damages4 due to salt water flooding, fallen trees, and debris from
Hurricane Sandy (see Appendix B). The damaged delivery vehicles were shuttled to
district VMFs for repair and placed back in service upon completion and testing. VMF
maintenance personnel performed various repairs, which included replacing starters,
alternators, batteries, battery cables, distributors, ignition switches, starter interrupt
switches, and seats. Additionally, fuel, ignition, computer modules, electrical systems
and chassis components were repaired or replaced as necessary to ensure vehicles
were safe and reliable. For example:

   Northern New Jersey District: Thirty-six delivery vehicles were damaged, including
    29 Long Life Vehicles (LLVs), four flooded Ford Windstar mini-vans, and three LLVs
    with roof damage from fallen trees. The cost of repairs was $55,695. Additionally,
    the Northern New Jersey District incurred $310,500 in rental costs for leased
    vehicles that were used to deliver mail while damaged vehicles were repaired.

   Long Island District: Ten LLVs sustained damage, with repair costs totaling $18,333.
    The vehicles were repaired at the Western Nassau VMF and placed back in service.


2
  2012 Hurricane Preparedness Guide — Area/District/Headquarters, dated June 1, 2012.
3
  The Capital Metro Area did not have damaged or destroyed vehicles from Hurricane Sandy.
4
  Damages to vehicles listed were due to salt water flooding, unless otherwise stated.

                                                       2
Vehicle Operations - Response                                                                    DR-AR-13-005
 to Hurricane Sandy


   Triboro District: Thirty-five delivery vehicles were damaged, with repair costs totaling
    $165,429.5 The vehicles were assigned to three VMFs — Brooklyn, Queens
    (Jamaica), and Staten Island. All damaged vehicles in the Triboro District were
    repaired and placed back in service.

   Albany District: One LLV sustained roof damage from a fallen tree. The repair was
    performed by MAACO Collision Repair & Auto Painting, the nationally contracted
    body shop at a cost of $5,764.

   Connecticut Valley District: One LLV sustained minor damage to the roof. The repair
    was performed at the Hartford VMF at a cost of $419.

   South Jersey District: Five LLVs sustained damage. The vehicles were assigned to
    the Lakewood VMF with repair costs totaling $3,692. Figure 2 depicts the starter
    from a vehicle damaged by salt water flooding.

                            Figure 2. LLV starter damaged by salt water




                        Source: U.S. Postal Service Office of Inspector General (OIG)
                        photograph taken February 5, 2013 at the Kilmer VMF.

Although some vehicles were repaired, two districts in the Northeast Area had delivery
vehicles that were a total loss due to salt water flood damage. VMF automotive
technicians declared the vehicles a total loss due to extensive damage to the engines,
transmissions, fuel tanks, computers, and wire harnesses. The costs to repair these
vehicles would have equaled or exceeded the vehicles’ blue book value. Postal Service
Headquarters management approved the disposal of the vehicles and instructed VMF
personnel to follow established policies and procedures for vehicle disposal.6




5
  Brooklyn VMF — seven damaged delivery vehicles with repair costs totaling $25,323; Queens (Jamaica) VMF —
18 damaged delivery vehicles with repair costs totaling $101,227; and Staten Island VMF — 10 damaged delivery
vehicles with repair costs totaling $38,879.
6
  Handbook PO-701, Fleet Management, March 1991, updated with Postal Bulletin, revisions through March 31,
2005; Disposal of Surplus Vehicle, Parts, and Equipment, Chapter 7.

                                                       3
Vehicle Operations - Response                                                          DR-AR-13-005
 to Hurricane Sandy


Specifically:

   Northern New Jersey District: Sixteen delivery vehicles were destroyed by salt water
    flooding for a total loss of $51,021 (see Figure 3).

                                       Figure 3. Destroyed LLV




           Source: OIG photograph taken February 5, 2013, at the Kilmer VMF.

   New York District: Six 1998 Ford Windstar mini-vans were destroyed for a total loss
    of $5,500, including $700 for towing (see Figure 4 and Figure 5).
          Figure 4. Destroyed Ford Windstar Mini-Van Showing Flood Line




                Source: OIG photograph taken February 7, 2013, at the Manhattan VMF.




                                                      4
Vehicle Operations - Response                                                          DR-AR-13-005
 to Hurricane Sandy



          Figure 5. Inside of Ford Windstar Mini-Van Destroyed by Flooding




               Source: Destroyed Vehicle Jacket file from the Manhattan VMF manager.

Postal Service officials began relocating the majority of their delivery vehicles to higher
ground within 72 hours (3 days), as required by the 2012 Hurricane Preparedness
Guide — Area/District/Headquarters, before the anticipated storm came ashore.
However, Hurricane Sandy deviated in an unpredictable direction affecting low-lying
locations in New York and New Jersey, normally not prone to flooding.

The Postal Service incurred $616,353 for vehicle repairs, rentals, and losses as a result
of Hurricane Sandy (see Appendix B). Updated emergency preparedness plans will
ensure there is appropriate designation of potential impacted areas, and allow officials
sufficient response time to secure assets during natural disasters.

Recommendation

We recommend vice presidents, Eastern and Northeast Area Operations:

1. Direct field personnel to update emergency preparedness plans to designate new
   low-lying flood areas created by Hurricane Sandy to safeguard delivery vehicles.


                                                    5
Vehicle Operations - Response                                               DR-AR-13-005
 to Hurricane Sandy


Management’s Comments

Management in the Eastern and Northeast Areas agreed with the finding and
recommendation. Management stated they review and update emergency plans on an
annual basis as part of their preparations for hurricane season. Management also
stated that since each hurricane is unique in its track, intensity and impacts, they
perform an after action review to identify and incorporate any lessons learned from each
event. In subsequent discussions, Eastern and Northeast area management stated they
directed field personnel to update emergency plans on June 1, 2013, and May 2, 2013,
respectively to designate new low-lying flood areas created by Hurricane Sandy. See
Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
corrective actions should resolve the issues identified in the report. The
recommendation will be considered closed with the issuance of this report.




                                           6
Vehicle Operations - Response                                                                            DR-AR-13-005
 to Hurricane Sandy



                                  Appendix A: Additional Information

Background

During late October 2012, Hurricane Sandy affected the entire eastern seaboard from
Florida to Maine with sustained winds of up to 110 miles per hour and spanning
1,100 miles in diameter, the largest, deadliest, and second costliest Atlantic hurricane
on record to hit the U.S. Losses due to damage are estimated to exceed $70 billion,
with severe damage sustained in New Jersey and New York. As Hurricane Sandy tore
through the East Coast, thousands evacuated their homes, schools closed, New York's
transit system halted, the stock exchange fell quiet, federal offices in Washington, D.C.
shut down, and most employers told workers to stay home. But a few employers, such
as the Postal Service, continued daily operations.

In 2010, the Office of National Preparedness (ONP) became the implementation
component of the Postal Service Continuity Program. 7 ONP's key responsibilities
include incident management, infrastructure protection, and performance measures. It's
role is integral to preparing for, responding to, and assisting in recovering and continuity
of operations from a major incident or event. On June 1, 2012, the Postal Service
director, National Preparedness, issued the 2012 Hurricane Preparedness Guide —
Area/District/Headquarters to assist area and district management in providing the
direction, coordination, and support to ensure the appropriate facilities are prepared for
hurricane season. The preparedness plan adheres to two federal government
emergency guides: National Hurricane Operations Plan 8 and the National Response
Framework (NRF).9

The 2012 Hurricane Preparedness Guide — Area/District/Headquarters, requires area
delivery programs management to ensure that districts complete preparedness activities
and advise area management of any gaps. Also, areas and districts are required to take
safeguards for delivery vehicles, such as reminding personnel to park vehicles side-to-
side and front-to-rear, evaluating the potential for flooding of vehicle parking areas,
having a plan to relocate vehicles to higher ground, updating any existing plans based
on major roadwork changes in ownership, and reiterating to staff proper procedures for
reporting missing vehicles.




7
  The program was established to ensure the safety and welfare of all Postal Service personnel throughout any
incident. It incorporates plans and procedures prior to, during, and after an event relative to employees' safety and
welfare.
8
  The U.S. Department of Commerce National Oceanic and Atmospheric Administration’s National Hurricane
Operations Plan, updated October 10, 2012, is published annually prior to hurricane season and documents
interdepartmental efforts to provide the U.S. and designated international recipients with forecasts, warnings, and
assessments concerning tropical and sub-tropical weather systems.
9
  The U.S. Department of Homeland Security’s NRF, dated January 2008, is a guide to conducting a national all-
hazards response. It is built on scalable, flexible, and adaptable coordinating structures to align key roles and
responsibilities across the nation.

                                                           7
Vehicle Operations - Response                                                 DR-AR-13-005
 to Hurricane Sandy



Objective, Scope, and Methodology

Our objective was to evaluate vehicle operations' emergency response to Hurricane
Sandy.

Our audit scope included a review of policies, processes, and procedures used to
safeguard delivery vehicles, delivery vehicle repairs, and delivery vehicles destroyed
because of Hurricane Sandy in the applicable districts, VMFs, and auxiliaries in the
Capital Metro, Eastern, and Northeast Areas of Operations. Specifically, we:

   Reviewed vehicle operations repair data for damaged and destroyed vehicles.

   Reviewed VMF vehicle repair service files in the selected districts. We analyzed
    whether required repairs were sufficiently performed on damaged vehicles.

   Reviewed data for VMF delivery vehicle repairs resulting from damages sustained
    during Hurricane Sandy. We identified the number, type, and cost of repairs for
    damaged vehicles.

   Reviewed vehicle warranties to determine whether vehicle repairs or vehicles
    destroyed were covered by warranty.

   Reviewed documents and applicable policies and procedures for vehicle repairs and
    disposal.

   Obtained, reviewed, and analyzed vehicle repair data from the Enterprise Data
    Warehouse (EDW) and Solution Enterprise Asset Management (SEAM) systems for
    vehicle repairs and vehicle repair costs resulting from Hurricane Sandy.

   Conducted on-site interviews and observations at selected VMFs and obtained
    information on damaged vehicle repair operations, processes, procedures, and so
    forth; and examined any other materials deemed necessary to accomplish our audit
    objective.

We conducted this performance audit from January through August 2013 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management on July 2, 2013, and included their comments where
appropriate.




                                            8
Vehicle Operations - Response                                                    DR-AR-13-005
 to Hurricane Sandy


We assessed the reliability of vehicle repair data from EDW and SEAM by accessing
the systems to retrieve/analyze various data elements and interviewing personnel
knowledgeable about the data and the repairs performed. We determined that the data
were sufficiently reliable for this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                              9
            Vehicle Operations - Response                                                                            DR-AR-13-005
             to Hurricane Sandy



                                       Appendix B: Damaged and Destroyed Vehicles


                                                                                Cost of
                                                              Damaged           Repairs        Destroyed         Value of
                                                              Delivery           and            Delivery         Vehicle            Total
      Area                District              VMF           Vehicles          Rentals         Vehicles          Loss              Costs

                       Northern New
 Northeast                                Kilmer                        36     $366,19510                 16         $51,021    $417,216
                       Jersey

                       New York           Manhattan                        0              0                6          $5,500         $5,500
                                          Western
                       Long Island                                      10       $18,333                   0                0       $18,333
                                          Nassau
                                          Brooklyn                         7     $25,323                   0                0       $25,323
                       Triboro            Queens                        18      $101,227                   0                0   $101,227
                                          Staten Island                 10       $38,879                   0                0       $38,879
                       Albany             Albany                           1       $5,764                  0                0        $5,764
                       Connecticut
                                          Hartford                         1         $419                  0                0         $419
                       Valley
 Eastern               South Jersey       Lakewood                         5       $3,692                  0                0        $3,692
 Capital
                       N/A                N/A                          N/A            N/A               N/A              N/A           N/A
 Metro11

     Totals                                                             88      $559,832                  22         $56,521    $616,353
 Grand Total                                                           110 Delivery Vehicles                                    $616,353
N/A: Not Applicable.




            10
                 Rental costs totaling $310,500 are included in the total.
            11
                 The Capital Metro Area did not have damaged or destroyed vehicles as a result of Hurricane Sandy.

                                                                      10
Vehicle Operations - Response                                                    DR-AR-13-005
 to Hurricane Sandy



                                                                      Percent
                                     Delivery                         Delivery
                                     Vehicles                         Vehicles
                                        in       Delivery Vehicles   Damaged/
     Area          District          District   Damaged/Destroyed    Destroyed
                  Northern
 Northeast        New Jersey            3,522                   52      1.48%
                  New York               102                     6      5.88%
                  Long Island           1,960                   10      0.51%
                  Triboro                984                    35      3.56%
                  Albany                1,715                    1      0.06%
                  Connecticut
                  Valley                4,979                    1      0.02%
                  South
 Eastern          Jersey                3,005                    5      0.17%
 Capital
 Metro            N/A                    N/A                   N/A         N/A
   Totals                             16,267                   110      0.68%
Source: Postal Service Management.




                                                  11
Vehicle Operations - Response                                 DR-AR-13-005
 to Hurricane Sandy


                          Appendix C: Management's Comments




                                         12
Vehicle Operations - Response        DR-AR-13-005
 to Hurricane Sandy




                                13
